A

•
Supreme Court, U.S.
FILED

:■

i
J

(
{

---IN THE
SUPREME COURT OF THE UNITED SATES

■©price orTHE-sbEflK' f!

■I

EMMANUEL TORRES
Petitioners

\

'f

V
. X

*

?V-

BAY AREA CREDIT SERVICESET AL
Respondent

PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
f"'-

%

EMMANUEL TORRES
120 ALCOTT PLACE APR 28E
BRONX NEW YORK 10472
646-529-8531

<■

-V-

/ .

m.
.V

&

f

2

QUESTION PRESNETED
Does a consumer have a private right of action under New York General
Business Law Section 349 for a Fair Debt Collection Practices Act Violation.

v

■V

if
•/I

.*
a.

l.
i

OPINIONS BELOW
The decision of the United States District of Columbia Southern District of
New York is an unpublished decision issued on December 23, 2019, by the Honorable
Paul Engeimayer 19-cv-9557. The case was timely appealed to the United States
Court of Appeals for the Second Circuit Jan 22, 2020, the appeal was docketed 20297. The Circuit Panel dismissed the Appeal in an unpublished decision dated
January 25, 2021. A timely petition for rehearing and rehearing en bank was filed
February 8, 2021. Petitioner was advised by the Clerk of the Court he could not file
for rehearing en bank, until he first filed a petition for reconsideration. Petitioner
filed the petition for reconsideration on March 3, 2021. The Circuit Panel Parker,
Lohier and Menashi denied the petition for reconsideration March 26, 221 and issued
its mandate April 2, 2021, this petition follows.
PARTIES TO THE ACTION
Concepcion Montoya
Aaron R Easley
Sessions Israel & Shartle LLC Hinshaw & Culbertson
800 Third Avenue 13th Floor
3 Cross Creek Drive
New York NY 10022
Flemington NJ 08822

Emmanuel Torres
120 Alcott PI 28E
Bronx NY 10472

CONSTITUTIONAL, STATUTORY,
REGULATORY PROVISIONS INVOLVED
Federal Statutes
15 U.S.C. 1692
15 U.S.C. 1692e(2)(A)
15 U.S.C. 1692e (10)
15 U.S.C. L692f) (1)
TABLE OF CONTENTS
OPINIONS BELOW
BASIS FOR JURISDICTION
STATEMENT OF THE CASE
APPELLANT FOLLOWED THE ENGELMAYER COURTS DIRECTIEV
SOUGHT RELIEF IN A COURT OF COMPETENT JURISDICTION
PETITIONER IMMEDIATELY OPPOSED THE REMOVAL MOTIONS
JUDGE CARTER AND JUDGE VYYKSIL REMANDED THE CASES
AFTER CONSIDERATIO ON THE MERITS
MEMORANDUM OF AUTHORITIES
REASONS FOR GRANTING THE WRIT
CONCLUSION
PROOF OF SERVICE
-v-

1
2
3
4
5
5
6
8
9
10

INDEX OF APPENDIX
NOTICE OF APPEAL
ORDER OF DISMISSAL AS MOOT
DENIAL OF PETITION FOR REHARING EN BANK
MANDATE SECOND CIRCUIT COURT OF APPEALS

a

-V-

A
B
C
D

TABLE OF AUTHORITIES
Conboy v. AT & T Corp.,
241 F 3d 242. 258 (2d Cir. 2001)

6

Fernandez v Peter J. Craig & Associates PC,
985 F. Supp 2d 363, 371 (E.D.N.Y. 2013)

7

Gomez v. Resurgent Capital Servs., LP
129 F.Sum).3d 147 (S.D.N.Y. 2015)

6

Gonzalez-Bianco v Bank of Am, N.A.
No ll-cv-07139 (TPG), 2011 WL 5433687, at 1 (SDNY Nov 9, 2011)

6

Holmes v Experian Information Solutions, Inc.,
507 Fed. Apx 33, 34 (2nd Cir 2013)

6

Hunter v. [Palisades Acquisition XVI, LLC,
2017 WL 5513636, at 8 (S.D.N.Y. Nov. 16, 2017)

7

In re Methyl Tertiary Butyl Ether (“MTBE”) Prods Liability Litig,
488 F.3d 112, 124 (2nd Cir 2007)

6

Martinez v LVNV Funding LLC
No 14-cv-00677 (RMM) (ST), 2016 WL 5719718 at 3 EDN. (Sept 30, 2016)

7-8

Nick's Garage, Inc. v. Progressive Casualty Ins. Co.,
875 F,3d 107. 124 (2d Cir. 2017).

7

Oswego Laborers' Local 214 Pension Fund v. Marine Midland Bank, N.A.,
85 N.Y.2d 20. 26, 623 N.Y.S.2d 529. 647 N.E.2d 741 (1995)

7

Samma v Abrams, Fensterman, Fensterman, Esiman, Formato,
Ferrara & Wolf LLP 163 F. Supp 3d 109, 117 (SDNY 2016),

7-8

Scott v. Greenberg,
15-CV-05527 (MKB), 2017 WL 1214441, at *19-20 (EDNY Mar. 31, 2017)

7-8

Spagnola v. Chubb Corp.,
574 F.3d €4. 74 (2d Cir. 2009).

7

-v-

Sullivan v Am, Airlines, Inc.,
1E24 F.3d 267, 272-273 (2nd Cir 2005)).

6

United Focd & Commercial Workers Union, Local 919 v Center Mark
Props, Meridien Square, Inc., 30 F.3d 298, 301 (2nd Cir 1994).

5

Winslow v. Forster & Garbus, LLP,
CV 15-2996 (AYS), 2017 WL 6375744, at *13 (E.D.N.Y. Dec 13, 2017)

8

i

-v-

----------------------- -----INTHE---------------------------SUPREME COURT OF THE UNITED SATES

EMMANUEL TORRES
Petitioners

V

BAY AREA CREDIT SERVICES ET AL
Respondent

PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

OPINIONS BELOW
The decision of the United States District of Columbia Southern District of
New York is an unpublished decision issued on December 23, 2019, by the Honorable
Paul Engelmayer 19-cv-9557. The case was timely appealed to the United States
Court of Appeals for the Second Circuit Jan 22, 2020, the appeal was docketed 20297. The Circuit Panel dismissed the Appeal in an unpublished decision dated
January 25, 2021. A timely petition for rehearing and rehearing en bank was filed
February 8, 2021. Petitioner was advised by the Clerk of the Court he could not file
for rehear:.ng en bank, until he first filed a petition for reconsideration. Petitioner
filed the petition for reconsideration on March 3, 2021. The Circuit Panel Parker,
Lohier and Menashi denied the petition for reconsideration March 26, 221 and issued
its mandate April 2, 2021, this petition follows.

-1-

BASIS-FOR JURISDICTION.
This. Court has jurisdiction over this matter pursuant to 28 U.S.C.1254(1)
CONSTITUTIONAL, STATUTORY, REGULATORY PROVISIONS INVOLVED
State Statutes
New York General Business Section 349
New York general Business Law Section 601
Federal Statutes
15 U.S.C.
15 U.S.C.
15 U.S.C.
15 U.S.C.

1692
1692e(2)(A)
1692e (10)
1692f) (1)

-2-

STATEMENT OF THE CASE
This case arises out of a fair debt collection practices act violation, which was
filed in the Civil Court for the City of New York County of the Bronx in a matter
entitled Eimmanuel Torres v American Medical Response and Bay Area Credit
Services. The instant matter specifically in volved a series of debt collection
violations, were Defendants. Engaged collection efforts, seeking to collect debt, from
a Manuel Torres a California resident. Petitioner sought to have the matter corrected,
he alerted Respondents to their error. He indicated he was a New York Resident. He
indicated he has never been to California. Lastly, he could not have been the
individual who was the subject of the ambulance ride to the San Diego Medical
Center. Tire matter was removed by Defendant American Medical Response to the
United States District Court Southern District of New York Case No 19-CV-9557.
After the status conference, initial terms of a settlement were reached in
principle, the matter was agreed to be settled for $1,500. Bur before the final
agreement was executed, petitioner was notified his credit monitoring agency (lifelock). Thai; another debt collection matter had been entered on his credit profile. After
some initial inquiries concerning the derogatory credit entry. Petitioner discovered
that Rural Metro Ambulance Company the reporting “creditor” and Wakefield &
Associates the “collection agency”. Had sought to collect on the same debt, as was
thought in the first action, Torres v American Medical Response. (Torres 1). However,
after further review petitioner realized that the event dates and pick up locations
sought to be collected. Were in fact two separate incidents-accidents and were two
separate individuals who just happen to have the same last name.
Peti tioner then went to the California Secretary of State website and located
the corporation filing documents for American Medical Response Inc. Petitioner then
further researched Rural Metro Ambulance Corporation and discovered that Rural
Metro, had been purchased lock, stock and barrel by American Medical Resp onse in
2015. Petitioner located the corporate name change documents which indicated its
name was changed from Rural Metro Ambulance Corp to American Medical
Response.
Petitioner conducted a PACER search for American Medical Response and
Rural Metro Ambulance Company. Petitioner located a US District Court Case from
the Southern District of California. Laila Abikhail v American Medical Response
Ambulance Services Inc Case No 2:15-cv-09358. Petitioner also located a second case
from the Southern District of California Normal R. Beachel v Credence Resource
Management Inc, et al Case No 3:17-cv-012444-L. Petitioner searched the legal
docket ancl at docket entry no 8, notice of interested parties. Rural Metro Ambulance
Corp indicated that Rural Metro is a wholly owned by Rural Metro Corporation,
-3-

which is wholly owned by WP Rocket Holdings Inc, which is wholly owned by AMR
"(American Medical Response Corporation). The notice was filed with the District
Court by Earijot S. Khalsa Attorney at Law Sessions, Fishman Nathan & Israel LLP.
Petitioner provided all of the copies of the relevant corporation documents
which were filed with the California Secretary of State. Because the documents were
obtained from a source whose accuracy could not be reasonably questioned.
Petitioner had submitted a valid offer of proof under Fed Rules of Evidence. The
documents, which were provided the Engelmayer Court. The documents clearly
established the incontrovertible fact. That Mr. Aaron Easley counsel for American
Medical Response made material and factual misstatements to the Engelmayer
Court. The material misstatement which was material to Petitioner’s motion
seeking to reopen the closed case was the fact that. Mr. Easley falsely testified to the
Engelmayer Court that American Medical Response and Rural Metro Ambulance
Corp were in fact unrelated entities,
Petitioner asserts that based in part on newly discovered facts and evidence
that sufficient cause existed to warrant the reopening of the “settled matter”.
Petitioner asserts that it was not harmless error for a District Court Judge, when
presented with a valid offer of proof in the form of public records. Subject to Federal
Rules of Evidence 201. To ignore material evidence of attorney misconduct (which is
subject to judicial notice) is not a discretionary function. At the core the issue which
called into question the settlement agreement, was the misrepresentation by Mr.
Easley, that American Medical Response and Rural Metro Ambulance Services were
separate an un-related entity. Because the Engelmayer Court, adopted the position
of American Medical Response. It denied the motion to reopen and motion for leave
to file the First Amended Complaint. The Engelmayer dismissal order included a
proviso which read in part as follows: “If plaintiff wishes to pursue litigation against
these new defendants he may do so in a court of appropriate jurisdiction”. This matter,
however, will remain closed. The clerk is directed to mail a copy of this order to
plaintiff’. Petitioner timely appealed the order to the Second Circuit.
APPELLANT FOLLOWED THE ENGELMAYER COURTS DIRECTIVE
AND SOUGHT RELIEF IN A COURT OF COMPENTENT JURISDICTION
Petitioner filed two state court actions, alleging violations of New York State
Fair Debt Collection Practices Act and General Business Law violations of Section
349 and 601. The actions were filed in the Civil Court of the City of New York County
of the Brcnx. On November 6, 2020, defendants to avoid default, removed both
Torres v Bay Area Credit Services Civil Case No 11449-2020 and Torres v Wakefield
& Associates Civil Case No 11448-2020 to the District Court. The newly assigned
district court case numbers were Emmanuel Torres v Bay Area Credit Services et al
-4-

20-cv-9342 and Emmanuel Torres v Wakefield & Associates et al 20-cv-9343.
PETITIONER IMMEDIATELY OPPOSED THE REMOVAL MOTIONS
Peti doner filed two motions seeking an order of summary remand one before
the Honorable Mary Vyskocil and the second one before Honorable Andrew Carter
Jr. Judge Carter had denied the motion for summary remand without prejudice.
Having determined in his initial review of the complaint, found “the complaint alleges
violations of the New York Fair Debt Collection Practices Act and General Business
Law Section 349. No federal claim is presented on the face of the complaint.” Further
Rule 12(h) of the Federal Rules of Civil Procedure requires courts to dismiss an action
“if [it] determines at any time it lacks subject-matter jurisdiction”.
JUDGE CARTER AND JUDGE VOYKSIL REMANDED
THE CASES AFTER CONSIDERATION OF THE MERITS
The Carter Court has set an order to show cause to which Petitioner responded
as did Defe ndants American Medical Response and Bay Area Credit Service who filed
their oppositions. Judge Voyksil who was the judge in the second matter Torres v
Wakefield & Associates et al. Likewise found the jurisdictional premise for removal
questionable and set a briefing schedule to address the summary remand motion.
Judge Carter after consideration of the merits of the supporting and opposing
briefs found. That instant matter Torres v Bay Area Credit Services et al was
improperly removed to District Court. He further found, no federal cause of action
was alleged, all of the allegations against Defendants. Were New York State causes
of action for violations of New York State Fair Debt Collection Practices Act.
Accordingly, he remanded the case.
Judge Vyskocil likewise after consideration of a fully briefed motion found
“[D]efendants has the burden to establish that removal was proper. United Food &
Commercial Workers Union, Local 919 v Center Mark Props, Meridien Square, Inc.,
30 F.3d 298, 301 (2nd Cir 1994). To do so, in its opposition to remand Rural Metro
cites several decisions from courts in this Circuit holding that certain state claims
are preempted by the Fair Credit Reporting Act (“FCRA”) and to a lesser extent, Fair
Debt Collection Practices Act (“FDCPA”). In essence Rural Metro submits that such
preemption means that Plaintiff could only succeed by bringing federal claims.
However, whether the claims as plead in plaintiffs complaint can succeed is not the
operative question for removal.
“Ordinarily, preemption is a defense to be asserted in state court and is not a
ground for the removal, except in a limited number of cases in which completepreemption applies. Under the complete preemption doctrine, certain federal
-5-

statutes are construed to have such extraordinary preemptive force that state law
claims-coming within the scope of the federal statues are transformed,, for
jurisdictional purposes, into federal claims i.e., completely preempted” Holmes v
Experian Information Solutions, Inc., 507 Fed. Apx 33, 34 (2nd Cir 2013) (summary
order) (quoting Sullivan v Am, Airlines, Inc., 424 F.3d 267, 272-273 (2nd Cir 2005)).
The Vyskocil court agreed with the majority of other courts “Plaintiffs
complaint does not in any fashion allege the violation of any federal law and
defendants cannot rely on the complete preemption removal doctrine to convert
plaintiffs state claim into a FRCA claim” citing Gonzalez-Bianco v Bank of Am N.A.
No ll-cv-07139 (TPG), 2011 WL 5433687, at 1 (SDNY Nov 9, 2011).Consistent with
instruction that the “statutory procedures for removal are to be strictly construed”
and that any doubts about jurisdiction should never be resolved “against
removability” In re Methyl Tertiary Butyl Ether (“MTBE”) Prods Liability Litig,
488 F.3d 3.12, 124 (2nd Cir 2007) (internal citations omitted) Plaintiffs claims should
be litigated in state court, The motion to remand is granted.
The Second Circuit panel dismissed the appeal as moot. Petitioner filed the
petitions for rehearing en bank and reconsideration. Judge Vyskocil remanded the
matter, arid the Second Circuit denied the petition for rehearing, issued its mandate
and this petition followed.
MEMORANDUM OF POINTS AND AUTHORITIES
Judge Carter in Morales v Kavulich & Associates 294 F. Supp 3d 193 (2018)
found that Morales argues that Kavulich violated § 349 by (1) enforcing non-existent
judgments, (2) sending out Restraints and Executions that systematically fail to
credit money paid on those judgments, and (3) falsely implying he had performed a
meaningful review in signing and serving the Restraint and Execution. Defendants
counter with two arguments. First, Kavulich's conduct falls under GBL § 601(8),
which prohibits a creditor or an agent thereof from "claiming], or attempting] or
theaten[ing] to enforce a right with knowledge or reason to know that the right does
not exist," and thus Morales cannot bring an action alleging a violation of § 349 based
on those acts. Second, pointing to Morales's affidavit, he was not deceived or misled
into believing there was a judgment against him and thus Kavulich's conduct was not
materially misleading. Both arguments fail.
Regarding the first argument, Defendants rely on Gomez v. Resurgent Capital
Servs., LP, 129 F.Supp.3d 147 (S.D.N.Y. 2015) for the argument that a claim under §
601 precludes a claim under § 349, although they acknowledge that courts have
disagreed with that decision. In Gomez, the court relying on Conboy v. AT & T
Corp., 241 F,3d 242, 258 (2d Cir. 2001), held that defendant's conduct, which involved
-6-

enforcing .sewer service default judgments on time-barred debts and the "robosigning" of the execution paperwork, was a violation of § 601 and thus precludes_§_
349. 129 F.Supp.3d at 158-59. In Conboy, the Second Circuit held that a plaintiff
could not plead a claim for violation of § 349 by alleging that a violation of GBL §
601(6) necessarily constitutes a deceptive act under GBL § 349. 241 F.3d at 258.
Other courts have found that the Gomez court's reading of Conboy is too broad and
interpret, instead, Conboy to prohibit a claim for § 349 that is "solely a violation of
Section 601." Martinez v. Lvnv Funding, LLC, No. 14-CV-00677 (RRM) (ST), 2016
WL 5719718, at *3 (E.D.N.Y. Sept. 30, 2016); Samms v. Abrams, Fensterman,
Fensterman, Eisman, Formato, Ferrara & Wolf, LLP, 163 F.Supp.3d 109, 117
(S.D.N.Y. 2016) ("Conboy simply stands for the proposition that a § 601 claim is not
necessarily a § 349 violation: it did not address conduct that supports claims under
both § 601 and § 349."); Scott v. Greenberg, 15-CV-05527 (MKB), 2017 WL 1214441,
at *19-20 (E.D.N.Y. Mar. 31, 2017) ("Conboy does not hold that a section 349 claim
may never overlap with a section 601 claim, only that a plaintiff cannot successfully
avoid the lack of a private right of action under section 601 by bringing a section 349
claim."). The Court finds Gomez unpersuasive and joins the weight of the authority
in finding that a plaintiff can bring a § 349 claim based on conduct that is also
violative o:? a § 601 claim, as long as the conduct meets all of the elements of a § 349
claim.
GBL § 349 prohibits "[deceptive acts or practices in the conduct of any
business, trade or commerce or in the furnishing of any service." GBL § 349(a). To
assert a claim under § 349, "a plaintiff must allege that a defendant has engaged in
(1) consumer-oriented conduct that is (2) materially misleading and that (3) plaintiff
suffered injury as a result of the allegedly deceptive act or practice." Nick's Garage,
Inc. v. Progressive Casualty Ins. Co., 875 F.3d 107. 124 (2d Cir. 2017). Defendants
contest only the second element of the § 349 claim, that Kavulich's conduct was
materially misleading. Whether an act is materially misleading is defined objectively
and looks to whether the act is likely to mislead a reasonable consumer acting
reasonably under the circumstances. Spagnola v. Chubb Corp., 574 F.3d 64. 74 (2d
Cir. 2009). The reasonable consumer element may either present issues of fact or be
resolved a3 a matter of law. Oswego Laborers' Local 214 Pension Fund v. Marine
Midland Bank, N.A., 85 N.Y.2d 20. 26, 623 N.Y.S.2d 529. 647 N,E,2d 741 (1995)
("[The] test ... may be determined as a matter of law or fact (as individual cases
require).").
In response to the restraint of his account, Morales, confused, went to the bank
to inquire about what was going on and sought legal assistance. See Morales Aff. 1116. Defendants argue these actions demonstrate that he was not deceived or led into
believing there was a judgment against him. See Morales Aff. 11-16. The argument
is baseless; on the contrary, these undisputed facts establish that Morales was
-7-

misled. After receiving an information subpoena or notice of the restraint, a
reasonable consumer reading those'documents would likely be misled into believing,
that the judgment exists and that the amount owed on these documents is accurate.
See Winslow v. Forster & Garbus, LLP, CV 15-2996 (AYS), 2017 WL 6375744, at *13
(E.D.N.Y. Dec 13, 2017) (holding "as a matter of law that statement, viewed
objectively, might lead a debtor to be confused as to the nature of the debt sought to
be collected and is therefore misleading"); Martinez, 2016 WL 5719718, at *3 (finding
that the practice of attempting to collect on previously vacated judgments "is
deceptive on its face"); Hunter v. Palisades Acquisition XVI, LLC, 2017 WL 5513636,
at 8 (S.D.N.Y. Nov. 16, 2017) (finding that issuance of restraint based on vacated
judgment is materially misleading). The undisputed facts are that Morales received
a restraining notice and execution that misrepresented that he had a judgment
entered against him. Accordingly, the information subpoena and restraining notice
were materially misleading, and Morales is entitled to summary judgment on his §
349 claim.
The holding within the Second Circuit was that New York General Business
Law Section 349 did not create “a private right of action” citing as its authority
Fernandez v Peter J. Craig & Associates PC, 985 F. Supp 2d 363, 371 (E.D.N.Y. 2013),
and General Business Law Section 602(2). However, three cases have rejected the
Gomez rea soning, Samma v Abrams, Fensterman, Fensterman, Esiman, Formato,
Ferrara & Wolf LLP 163 F. Supp 3d 109, 117 (SDNY 2016), provided a more accurate
reading of Comboy, explaining “proposition that a 601 claim is not necessarily a 349
conduct that supports both 601 and 349. In particular, it does not disallow a 349
claim because the underlying conduct also constitutes a violation of 601. Similarly
Martinez v LVNV Funding LLC No 14-cv-00677 (RMM) (ST), 2016 WL 5719718 at 3
E.D. N.Y. (Sept 30, 2016) found Gomez “unpersuasive and against the weight of more
compelling authority” Martinez adopted Samms holding that a private right of action
under GBL 349 is not barred simply because he facts also give rise to a GBL 601
claim. A plaintiff may still assert a free standing GBL 349 claim so long as they
meet all of the GBL 349 elements id at 2-3 see also Scott v Greenberg 15-cv-05527
(MKB), 2017 WL 1214441 at 19 E.D.N.Y. Mar 31, 2017, adopting Samms and
Martinez.
REASONS FOR GRANTING THE WRIT
The Second Circuit has permitted an inter-district and an inter circuit conflict
to remain unresolved. The basic question remains does a consumer who is asserting
injury on a.ccount of a fair debt collection practices act violation have a private right
of action?

-8-

CONCLUSION
Petitioner asserts that clarity is an absolute and necessary function when it
comes to th e regulation of and enforcement of fair debt collection violations. At issue
is the question does a litigant have a “private right of action” for a debt collection
violation.

Emmanuel Torres

-9-

